ES, IG-98-031, National Technology Transfer Center
NATIONAL TECHNOLOGY TRANSFER CENTER
IG-98-031
Executive Summary
Introduction
The National Technology Transfer Center (NTTC) fosters NASA and Federal
technology transfers with U.S. industry and provides businesses with access
to information, expertise, and facilities.  Located at Wheeling Jesuit
University (the University) in Wheeling, West Virginia, NTTC operates
under a 5-year cooperative agreement
(1) with NASA.  NTTC is one element in
NASA's technology transfer network.  Other major elements include the 6
Regional Technology Transfer Centers (RTTCs) and the 10 Center Technology
Offices at NASA field installations.  The Commercial Programs Division,
Office of Aeronautics and Space Transportation Technology, provides
management oversight of NASA-wide technology activities.  Prior Office of
Inspector General and other reviews are shown in Appendix D.
Objectives
The audit objective was to answer the following questions:
Is the NTTC effectively carrying out its stated functions?  Can these functions be performed more efficiently and cost-effectively by some other existing method?
Do any of the functions performed by NTTC duplicate activities conducted by other NASA technology transfer organizations?
What metrics does NASA use to measure NTTC performance?
Is the NTTC managed in accordance with an operating plan?
Does NASA provide appropriate oversight of NTTC?
See Appendix A for scope and methodology information.
Results of Audit
The following issues require management's attention:
NASA needs to clarify NTTC's mission. In 1995 NASA directed NTTC to shift from a national to a NASA technology transfer focus without formally defining NTTC's revised mission.  Consequently, NTTC's mission is unclear, similar to that of the RTTCs, and not fully integrated into NASA's technology transfer organization. Also, some NASA-specific activities are inappropriate under the cooperative agreement.
NTTC's monthly reports to NASA do not include enough information on NTTC's performance to assist NASA in fulfilling its oversight responsibilities.
NTTC charged NASA $19,500 of unallowable salary costs for the former NTTC Executive Director.
The "Findings and Recommendations" section of this report describes these issues in detail.
Recommendations
We recommended that the Director, Commercial Programs Division, clearly
define the NTTC and RTTC missions, incorporate the revised missions in
award instruments, acquire services related to technology transfer
activities by using the appropriate award instrument, and revise the
format of the NTTC monthly report.  We also recommended the recovery of
unallocable costs.
Management's Response
Management concurred or partially concurred with all recommendations.
Evaluation of
Management's Response
Management's planned actions are responsive to the recommendations.
FOOTNOTE
1.  Cooperative Agreement NCCW-0065 was awarded on
November 1, 1994, for $49 million.